Report No. D2008-053          February 19, 2008




    Defense Finance and Accounting Service
    Kansas City Federal Managers' Financial
  Integrity Act, Federal Financial Management
   Improvement Act, and Federal Information
Security Management Act Reporting for FY 2005
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASA                   Annual Statement of Assurance
DFAS                  Defense Finance and Accounting Service
FFMIA                 Federal Financial Management Improvement Act
FISMA                 Federal Information Security Management Act
FMFIA                 Federal Managers’ Financial Integrity Act
GAO                   Government Accountability Office
IT                    Information Technology
OMB                   Office of Management and Budget
USMC                  United States Marine Corps
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                         February 19, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               NAVAL INSPECTOR GENERAL

SUBJECT: Report on Defense Finance and Accounting Service Kansas City Federal
         Managers' Financial Intcgrity Act, Federal Financial Management
         Improvement Act, and Federal Information Security Management Act
         Reporting for FY 2005 (Report No. D-2008-053)


       We are providing this report for review and comment. We considered comments
from the Defense Finance and Accounting Service when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service comments were partially responsive. We
request additional comments on Recommendations A.I., B.2., and C. Therefore, we
request that the Director, Defense Finance and Accounting Service provide comments by
March 19,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudDFS@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Edward A. Blair at (216) 706-0074 ext. 226 or Ms. Cecelia M. Ball at (816) 926-8501
ext. 222 (DSN 456-850 I). The team members are listed inside the back cover. See
Appendix B for the report distribution.

                               By direction of the Deputy Inspector General for Auditing:




                                fWv~ t!,                  /J1CW»
                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                           Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-053                                                   February 19, 2008
   (Project No. D2005-D000FC-0294.000)

      Defense Finance and Accounting Service Kansas City Federal
          Managers’ Financial Integrity Act, Federal Financial
       Management Improvement Act, and Federal Information
           Security Management Act Reporting for FY 2005

                                 Executive Summary

Who Should Read This Report and Why? Defense Finance and Accounting Service
(DFAS) Headquarters, Cleveland, and Kansas City personnel responsible for the internal
control program and Annual Statement of Assurance reporting; and Department of Navy
and United States Marine Corps personnel responsible for financial management and
reporting should read this report. This report contains recommendations that DFAS
Kansas City should follow to ensure that effective internal controls are in place to assess
and report on its Management Control Program. The United States Marine Corps relies
on assurances made regarding the effectiveness of controls DFAS Kansas City uses to
prepare the United States Marine Corps stand-alone financial statements. The United
States Marine Corps financial statements are consolidated into the Department of Navy
financial statements.

Background. This report provides an assessment of the reliability of the DFAS Kansas
City FY 2005 Annual Statement of Assurance report on internal control required by the
Federal Managers’ Financial Integrity Act (FMFIA) and Federal Financial Management
Improvement Act (FFMIA). In addition, this report provides an assessment of DFAS
Federal Information Security Management Act (FISMA) reporting on its security
program. DFAS Kansas City is responsible for reporting the United States Marine Corps
financial statement data to the Department of the Navy. This report discusses how DFAS
Kansas City implemented policies and procedures governing internal controls over
financial data.

Results. DFAS Kansas City did not have adequate processes in place to determine
whether material internal control weaknesses existed and were included in the FMFIA,
FFMIA, and FISMA annual reports as required. Specifically, DFAS Kansas City did not
have an adequate management control program (finding A), did not comply with
financial management system control reporting requirements (finding B), and submitted
incomplete information for Federal Information Security Management Act reporting
(finding C). Without adequate processes in place, DFAS Kansas City and the United
States Marine Corps cannot ensure an effective control environment for producing
accurate and timely financial information. DFAS Kansas City must address these
vulnerabilities as required by Federal and DoD criteria outlined in the report. See the
Findings section of the report for the detailed recommendations.

Management Comments and Audit Response.

The Director, DFAS Kansas City nonconcurred with all recommendations. He included
in his comments that the Chief Information Officer, Defense Finance and Accounting
Service also nonconcurred with the recommendations. Although the Director, DFAS
Kansas City nonconcurred, we identified some corrective actions that we consider
responsive to the intent of the recommendations. These actions were responsive and
further comments are not required. We revised and redirected other recommendations to
the Director, DFAS because comments were not responsive.

We request that the Director, DFAS comment on the final report by March 19, 2008. See
the Findings section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                         i

Background                                                1

Objectives                                                3

Findings
     A. Adequacy of Internal Control Program              4
     B. Financial Management System Controls Reporting   11
     C. FISMA Reporting                                  15

Appendixes
     A. Scope and Methodology                            18
         Prior Coverage                                  18
     B. Report Distribution                              20

Management Comments
     Director, DFAS Kansas City                          23
Background
           The Defense Finance and Accounting Service (DFAS) Kansas City is responsible
           for reporting the United States Marine Corps (USMC) financial statement data to
           the Department of the Navy. This financial statement data is ultimately included
           in the DoD consolidated financial statements. USMC relies on DFAS Kansas
           City’s assurances regarding the controls used to prepare the USMC financial
           reports and ultimately its financial statements. The DFAS Kansas City
           Accounting Business Line provides controls and functional management
           oversight of accounting services and processes used to generate the USMC
           financial statements. Established controls should reasonably ensure that assets
           are safeguarded. In addition, these controls should reasonably ensure that
           obligations, revenues, and expenditures are accounted for and properly recorded
           to produce reliable financial reports. These disciplined financial and management
           controls are essential in preventing potential fraud, waste, and abuse. DFAS
           Kansas City reports on its internal control structure in its Annual Statement of
           Assurance (ASA).

           Management Control Reporting. All agency heads must evaluate and report
           annually to the President and Congress on their management controls and
           financial systems used to protect the integrity of Federal programs. This
           reporting is required by the:

                    •   Federal Managers’ Financial Integrity Act of 1982 (FMFIA),

                    •   Federal Financial Management Improvement Act of 1996 (FFMIA),
                        and

                    •   Federal Information Security Management Act of 2002 (FISMA).

           FMFIA Reporting. In 1982, Congress passed the FMFIA,1 which requires
           agencies to develop cost-effective internal accounting and administrative controls.
           These controls are intended to help ensure that an agency’s:

                    •   obligations and costs are in compliance with applicable law;

                    •   funds, property, and other assets are safeguarded against waste, loss,
                        unauthorized use, or misappropriation; and

                    •   revenues and expenditures applicable to agency operations are
                        properly recorded and accounted for.

           Section 2 of the FMFIA requires the head of each agency to evaluate annually the
           agency’s internal control and prepare an ASA indicating the effectiveness of its
           internal control. The agency head must include in its ASA any identified material
1
    The key provisions of FMFIA were codified in section 3512 (c) and (d), title 31, United States Code.



                                                       1
           weaknesses in internal control as well as plans and schedules for correcting those
           weaknesses.

           Section 4 of the FMFIA requires that the head of each agency include a separate
           report on whether the agency’s accounting system conforms to the principles,
           standards, and related requirements prescribed by the Comptroller General.

           FFMIA Reporting. The FFMIA is intended to advance Federal financial
           management by ensuring that Federal financial management systems:

               •    can and do provide reliable, consistent disclosure of financial data;

               •    disclose financial data in a manner that is uniform across the Federal
                    Government from year to year; and

               •    comply with applicable Federal accounting standards.

           The FFMIA is intended to provide the basis for ongoing use of reliable financial
           information in program management and in oversight by the President, Congress,
           and the public. Even though there are separate reporting requirements for FFMIA,
           the FMFIA requires that the FFMIA information be included in Section 4 of the
           FMFIA ASA.

           FISMA Reporting. FISMA provides the framework for securing the Federal
           Government’s information technology including both unclassified and national
           security systems. These systems include financial and non-financial systems. All
           agencies must implement the requirements of FISMA and report annually to the
           Office of Management and Budget (OMB) and Congress on the effectiveness of
           their security programs based on OMB guidance and requirements. If the security
           programs do not fully comply with FISMA requirements, these weaknesses must
           be reported in the annual FMFIA ASA and FFMIA reports.

           OMB Guidance. OMB Circular A-123, “Management’s Responsibility for
           Internal Control,” revised June 21, 1995,2 provides guidance to Federal managers
           on improving the accountability and effectiveness of Federal programs and
           operations by establishing, correcting, and reporting on internal control.

           OMB issued “Revised Implementation Guidance for the Federal Financial
           Management Improvement Act,” on January 4, 2001. This guidance lists the
           specific requirements of FFMIA, as well as factors to consider in reviewing
           systems for compliance. It also provides guidance to agency heads developing
           corrective action plans to bring an agency into compliance with FFMIA.


2
    OMB Circular A-123 was revised December 21, 2004; the revision was not in effect until FY 2006, but
    agencies were encouraged to implement it in FY 2005. The revision changed terminology from
    “management controls” to “internal control” and added Appendix A to specifically address assessing,
    documenting, and reporting on the effectiveness of internal control over financial reporting. Appendix A
    was added to strengthen the previously identified internal control reporting requirements.



                                                      2
           In addition, OMB issued Memorandum M-05-15 “FY 2005 Reporting
           Instructions for the Federal Information Security Management Act and Agency
           Privacy Management,” on June 13, 2005. This memorandum provides
           instructions for agency reporting under FISMA. The agency’s FISMA
           information is submitted to OMB.

           Ultimately, OMB uses the information to:

                •   help evaluate agency-specific and Government-wide security
                    performance,

                •   develop its annual security report to Congress,

                •   assist in improving and maintaining adequate agency security
                    performance, and

                •   develop the E-Government Scorecard as part of the President’s
                    Management Agenda.

           DoD Guidance. DoD Instruction 5010.40, “Management Control Program
           Procedures,” August 28, 1996,3 is the official document for DoD compliance with
           the FMFIA and OMB Circular A-123. DoD Instruction 5010.40 sets forth the
           responsibilities of the Under Secretary of Defense (Comptroller)/Chief Financial
           Officer with regard to implementing its program.

           To satisfy the reporting requirement of FMFIA, DoD, using information from the
           DoD Components, prepares an ASA to report on whether the agency’s internal
           control is effective and achieving the intended objectives in accordance with
           established guidelines and standards. Compliance with FMFIA, FFMIA, and
           FISMA reporting should be used as an indicator that disciplined financial and
           management controls are in place. Effective management controls are intended to
           prevent potential fraud, waste, and abuse.

Objectives
           The overall audit objective was to assess the internal controls in place for
           reporting USMC financial and management data as related to accounting
           functions performed by DFAS Kansas City. Specifically, we determined whether
           the processes for completing FY 2005 reports required by the FMFIA, FFMIA,
           and FISMA were adequate. See Appendix A for a discussion of the scope and
           methodology.


3
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control Program
    Procedures,” August 28, 1996. DoD Instruction 5010.40, “Managers’ Internal Control Program,” was
    reissued on January 4, 2006. DoD Directive 5010.38 has been incorporated into DoD Instruction
    5010.40 and DoD Directive 5010.38 has been cancelled.



                                                    3
                    A. Adequacy of Internal Control
                       Program
                    DFAS Kansas City Accounting Business Line personnel did not
                    adequately implement OMB, DoD, and DFAS guidance to comply with
                    FMFIA requirements. Specifically, DFAS Kansas City Accounting
                    Business Line personnel did not:

                             •    complete required risk assessments for each functional area,

                             •    properly identify management controls,

                             •    determine whether all major functions were included in an
                                  assessable unit,4 and

                             •    provide control testing documentation supporting the FMFIA
                                  ASA report.

                    FMFIA requirements were not adequately implemented because DFAS
                    Kansas City Accounting Business Line personnel did not receive
                    appropriate oversight and training. In addition, they were not fully aware
                    of their reporting responsibilities. As a result, the processes used did not
                    meet FMFIA requirements, and DFAS Kansas City cannot ensure the
                    reliability of its FMFIA ASA.


Risk Assessments
           DFAS Kansas City did not complete required risk assessments for each functional
           area. OMB Circular A-123, “Management Accountability and Control,” revised
           June 21, 1995; DoD Instruction 5010.40, “Management Control Program
           Procedures,” August 28, 1996; and DFAS Kansas City Standard Operating
           Procedures, “Federal Managers’ Financial Integrity Act, Section 2 Management
           Control Program,” July 28, 2004, require risk assessments to determine a
           functional area’s (assessable unit’s) vulnerability to waste, fraud, loss, abuse,
           mismanagement, and misappropriation. DFAS Kansas City Management Control
           Evaluations identified risks as error reports, incomplete cycles, and poor customer
           service. However, OMB A-123 states that risk assessments should address the
           potential effect on the financial statements and the five financial statement
           assertions of:

                    •    existence
                    •    completeness
                    •    valuation

4
    An assessable unit is a function or group of functions that require a manager to control resources within a
    business line or support service.



                                                        4
            •   rights and obligations
            •   presentation and disclosure.

     Without DFAS Kansas City identifying areas of risk, they cannot design or
     institute controls to minimize that risk. DFAS Kansas City personnel were not
     properly trained and were unaware of the requirements. DFAS Kansas City
     provided FMFIA reporting requirements training in April 2006 to DFAS Kansas
     City personnel. In addition, in September 2006, the Office of Under Secretary
     Defense (Comptroller)/Chief Financial Officer provided training on OMB
     Circular No. A-123, Appendix A. However, this training occurred after the 2006
     ASA was issued, and the training did not incorporate all requirements for FMFIA
     ASA reporting. The training only addressed the financial reporting requirements,
     not the entire Management Control Program. We reviewed the FY 2006 DFAS
     Kansas City ASA and supporting information. We determined DFAS Kansas
     City did not implement significant changes to its risk assessment processes for FY
     2006.


Internal Controls
     DFAS Kansas City personnel did not properly identify internal controls because
     DFAS Kansas City identified performance measures in its Management Control
     Evaluations. OMB Circular A-123 defines internal controls as the organization,
     policies, and procedures used to reasonably ensure that:

            •   resources are used consistent with the agency mission;

            •   programs and resources are protected from waste, fraud, and
                mismanagement; and

            •   reliable and timely information is obtained, maintained, reported, and
                used for decision making.

     DFAS Kansas City did not define their internal controls as required, but instead
     identified performance measures as internal controls. For example, Field
     Accounting personnel stated that one of their controls was to use desktop
     procedures and journal vouchers to ensure timely preparation and delivery of the
     monthly trial balance to Departmental Accounting. The reported internal controls
     did not indicate how those controls ensured the accuracy and reliability of
     financial information, only that the trial balances were delivered timely. Upon
     subsequent review of the FY 2006 DFAS Kansas City ASA and supporting
     information, we determined that DFAS Kansas City did not implement significant
     changes to identify applicable Managers’ Internal Controls.




                                         5
Assessable Units
     DFAS Kansas City Accounting Business Line personnel did not determine
     whether all major functions were included in an assessable unit. DFAS Kansas
     City standard operating procedures require that flowcharts be completed for major
     functions and processes to identify internal controls and their locations. All major
     functions and activities must be included in one or more assessable units.
     Assessable units should be linked to specific processes identified in the
     flowcharts.

     DFAS Kansas City Accounting Business Line personnel were unable to provide
     flowcharts or other documentation to identify internal controls and where the
     controls reside in DFAS processes as required by DFAS regulations. Because
     DFAS Kansas City could not provide this documentation and DFAS Kansas City
     personnel were unclear as to their duties in regards to FMFIA, we have no
     assurance that all major functions were included in an assessable unit. Upon
     subsequent review of the FY 2006 DFAS Kansas City ASA and supporting
     information, we determined that DFAS Kansas City did not implement significant
     changes to ensure that all major functions were included in an assessable unit.

Control Testing Documentation
     DFAS Kansas City did not provide control testing documentation supporting its
     FMFIA ASA. OMB Circular A-123 requires that documentation for internal
     controls and other significant events must be clear and readily available for
     examination. In addition, DoD Instruction 5010.40 and DFAS Kansas City
     standard operating procedures require that appropriate documentation be
     maintained. Specifically, DFAS Kansas City standard operating procedures
     require that a file be maintained for supporting documentation and work papers
     associated with each Management Control Evaluation completed. Management
     Control Evaluations are used to document the testing of these internal controls.
     We requested internal control documentation supporting DFAS Kansas City
     Management Control Evaluations. DFAS Kansas City could not provide the
     testing documentation as required because they were not fully aware of their
     reporting responsibilities. As a result, we could not verify the adequacy of the
     Manager’s Annual Assessable Unit Certification Statement. Upon our subsequent
     review of the FY 2006 DFAS Kansas City ASA and supporting information,
     DFAS Kansas City did not implement significant changes to maintain testing
     documentation supporting the ASA report.


Conclusion
     The Internal Control Program processes reviewed did not provide adequate
     information to ensure accurate reporting for compliance with FMFIA. DFAS
     Kansas City personnel did not understand their duties or follow prescribed


                                          6
    procedures for FMFIA reporting. This was evidenced by the lack of risk
    assessments, improperly identified internal controls, the inability to determine
    whether all major functions were identified and included in an assessable unit,
    and the lack of control testing documentation. Until DFAS Kansas City follows
    the OMB, DoD, and DFAS policies and procedures, its FMFIA ASA cannot be
    relied upon to provide accurate information on the effectiveness of the internal
    control environment. The ASA becomes more critical as the USMC moves
    forward in obtaining an audit opinion on their stand-alone financial statements.
    In addition, as DFAS Kansas City is scheduled to close as part of the Base
    Realignment and Closure, the importance of identifying and ensuring that proper
    controls are in place becomes more critical as functions move to other DFAS
    locations. For FY 2006, DFAS Kansas City did not implement significant
    changes to its ASA preparation and reporting processes to assess risks, identify
    applicable Managers’ Internal Controls, ensure all major functions were included
    in an assessable unit, and maintain testing documentation supporting the ASA
    report.


Management Comments on the Finding and Audit Response
    Management Comments on Adequacy of Internal Control Program. The
    Director, DFAS Kansas City stated that the processes reviewed provided adequate
    information to ensure accurate reporting for compliance with the FYs 2005 and
    2006 ASAs. To improve the Section 2 reporting, DFAS Kansas City sought to
    strengthen the internal management control program by providing training on
    internal control activities and implementing a new Internal Control Unit in
    August 2006. DFAS Kansas City does not agree that its internal control
    processes could not identify risk and could not design or institute controls to
    minimize risks, but does agree that reporting and documentation could have been
    improved.

    Audit Response. DFAS Kansas City did provide training in September 2006;
    however, the training did not apply to the time frame for this audit. The Director,
    DFAS Kansas City agreed that reporting and documentation could be improved;
    the available documentation did not provide evidence that DFAS Kansas City
    internal control processes identified risks, designed controls, and established
    controls to minimize risks.


Recommendations, Management Comments, and Audit
  Response
    Revised and Redirected. As a result of management comments, we revised and
    redirected Recommendation A.1 to the Director, DFAS to provide training
    regarding internal control to personnel responsible for current and future Marine
    Corps Accounting Business Line functions.



                                         7
A.1. We recommend that the Director, Defense Finance and Accounting
Service provide training to current and future Defense Finance and
Accounting Service personnel responsible for the Marine Corps Accounting
Business Line to ensure compliance with Office of Management and Budget
and Defense Finance and Accounting Service policies. Specifically, the
training should cover:

       a. adequate risk assessments,

       b. the associated internal controls to ensure reliability,

       c. measurable assessable units, and

       d. procedures for maintaining control testing documentation.

Management Comments. The Director, DFAS Kansas City nonconcurred. The
Director, DFAS Kansas City stated that risk assessments were completed as part
of the Management Control Assessable Unit Matrix Evaluation Form,
documented, and signed in accordance with DFAS 5010.38-R (May 2002). He
added that the risk criteria cited by the DoD Office of the Inspector General
applies to the organizations responsible for reporting Internal Controls over
Financial Reporting (OMB A-123 Appendix A) not DFAS Kansas City.
Regarding the internal controls to ensure reliability, the Director, DFAS Kansas
City stated that their review of Assessable Unit Matrixes for FYs 2005 and 2006
found that 83% and 97% respectively did not use Performance Management
Indicators as Key Controls. Performance Management Indicators were identified
in addition to other controls in those Assessable Units noted by the DoD Office of
the Inspector General. The Director, DFAS Kansas City agreed that managers are
responsible for assessing whether all of their major functions are included in the
respective assessable units. Although flowcharts were not required by the DFAS
5010.38-R (May 2002), DFAS Kansas City standard operating procedures did
require flowcharts but personnel did not follow the procedures. The Director,
DFAS Kansas City also agreed that DFAS Kansas City provided incomplete test
documentation. He indicated that the documentation for FYs 2005 and 2006 was
sufficient to support the FYs 2005 and 2006 ASAs. He also stated that DFAS
Kansas City received positive feedback on its Fund Balance With Treasury
processes from the Naval Audit Service in 2006 and the Standard Accounting,
Budgeting, and Reporting System received Joint Financial Management
Improvement Program certification by an independent firm (July 2005).

Audit Response. The Director, DFAS Kansas City comments were not
responsive. He did not address the recommendation, but first focused on risk
assessment criteria. Because DFAS Kansas City supports financial reporting for
the USMC, it is important that DFAS provide training for personnel to ensure that
OMB A-123 requirements are achieved. Second, we reviewed the support for
DFAS Kansas City’s percentages; we determined that 35 percent and 21 percent
of the Assessable Unit matrixes for FYs 2005 and 2006, respectively, were
Performance Management Indicators (performance measures). Performance
measures do not ensure the accuracy and reliability of financial information. In


                                    8
addition, DFAS Kansas City analysis included Assessable Units that were not
within the scope of this audit. Third, because the Director, DFAS Kansas City
agreed that standard operating procedures requiring flowcharts were not followed,
the recommendation should be implemented. Finally, the Director, DFAS Kansas
City agreed DFAS Kansas City did not provide all ASA test documentation. In
the absence of complete documentation, we could not verify that the FYs 2005
and 2006 ASAs were fully supported. As part of internal management control
procedures, complete documentation must be maintained to support the ASA.

The Director, DFAS Kansas City indicated that the Naval Audit Service and Joint
Financial Management Improvement Program Certification testing reports
reinforced the DFAS Kansas City internal control environment to support an
ASA. However, the results from this testing is only part of the entire internal
control program and deficiencies were identified in both reports. The Naval
Audit Service performed testing only on Fund Balance With Treasury. The
Standard Accounting, Budgeting, and Reporting System did not pass testing for
Joint Financial Management Improvement Program Certification, completed by
an independent firm. The independent firm’s report did not state that the
Standard Accounting, Budgeting, and Reporting System is Joint Financial
Management Improvement Program certified. According to the independent
firm’s report, the Standard Accounting, Budgeting, and Reporting System was
tested for only 212 of the 331 Joint Financial Management Improvement Program
requirements. Of the 212 Joint Financial Management Improvement Program
requirements tested, the Standard Accounting, Budgeting, and Reporting System
failed to meet 56 of those requirements, 23 of which were critical requirements
for certification. Over one third, or 115, requirements for feeder systems should
also be assessed. DFAS must test these feeder systems to know the extent of their
financial systems compliance to FFMIA to support USMC financial reporting.

We request that the Director, DFAS review and comment on our recommendation
to provide training to personnel responsible for current and future Marine Corps
Accounting Business Line functions to ensure compliance with OMB and DFAS
policies.

A.2. We recommend the Director, DFAS Kansas City designate
knowledgeable personnel to lead and monitor the Defense Finance and
Accounting Service Kansas City Management Control Program.

Management Comments. The Director, DFAS Kansas City nonconcurred. The
Director, DFAS Kansas City stated that it has had, and continues to have,
knowledgeable personnel to lead and monitor its Management Control Program.
DFAS Kansas City established a three-person Management Control Team in
August of 2006 to provide additional support and capabilities.

Audit Response. Although the Director DFAS Kansas City nonconcurred, the
comments are responsive. The establishment of a Management Control Team
indicates that corrective actions have been implemented that would meet the
intent of our recommendation and potentially correct the deficiency. No further
comments are requested.



                                    9
A.3. We recommend the Director, DFAS Kansas City coordinate with
Defense Finance and Accounting Service Cleveland to ensure that the
Defense Finance and Accounting Service Kansas City’s Management Control
Program effectively transfers financial functions as a result of DoD’s Base
Realignment and Closure.

Management Comments. The Director, DFAS Kansas City nonconcurred. He
stated that the transfer of the Management Control Program to DFAS Cleveland is
included in the DFAS Kansas City Base Realignment And Closure Closing Plan
(August 2006). DFAS Kansas City has coordinated, and will continue to
coordinate, with DFAS Cleveland. He added that this recommendation is out of
scope for the time frame of the audit.

Audit Response. Although the Director, DFAS Kansas City nonconcurred, the
comments indicate that corrective actions have been taken because the transfer of
the Management Control Program is addressed in the DFAS Kansas City Base
Realignment And Closure Closing Plan, August 2006. These comments are
responsive and no further comments are requested.




                                    10
                    B. Financial Management System
                       Controls Reporting
                    DFAS Headquarters and DFAS Kansas City did not comply with the
                    reporting requirements of FFMIA or FMFIA Section 4. They did not
                    comply with reporting requirements because they relied on DoD to report
                    financial management system weaknesses at the Department level. In
                    addition, they relied on DoD to submit a remediation plan at the
                    Department level for DoD-wide material weaknesses. As a result, DFAS
                    Kansas City did not ensure that USMC financial management systems:

                            •    were United States Standard General Ledger compliant,

                            •    could provide accurate and timely information for
                                 decision-makers, and

                            •    could produce consistent and reliable financial statements.

                    Without Component-level reporting, DoD cannot accurately report on its
                    financial systems as a whole.

FFMIA and FMFIA Section 4 Reporting
           DFAS Headquarters and DFAS Kansas City did not comply with FFMIA and
           FMFIA ASA Section 4 reporting. DFAS Kansas City stated that the Business
           Transformation Agency5 would report the financial management system
           weaknesses because these are DoD-wide material weaknesses. In addition, DFAS
           Headquarters and DFAS Kansas City relied on DoD to report system weaknesses
           and the associated remediation plan at the Department level. DoD created the
           Financial Improvement and Audit Readiness Plan to address all financial
           management improvement actions needed and to serve as the remediation plan for
           DoD financial management systems weaknesses.

           FFMIA establishes a statutory requirement for agency heads to annually assess
           whether their:

               •    financial management systems comply with Federal financial management
                    system requirements,




5
    The Business Transformation Agency has been established to a) ensure consistency, consolidation, and
    coordination of DoD Enterprise-level business systems, and b) reduce redundancies in business systems
    and overhead costs.



                                                     11
       •   financial management systems comply with applicable Federal accounting
           standards, and

       •   Standard General Ledger is at the transaction level.

    Agencies that are not substantially compliant with these requirements must
    develop remediation plans to achieve compliance. In addition, financial system
    weaknesses identified under FFMIA should be reported in FMFIA Section 4 of
    the ASA.

    DFAS Headquarters and DFAS Kansas City officials stated that financial
    management system weaknesses were reported at the Department level; therefore,
    they knew weaknesses existed with information systems. Yet, DFAS
    Headquarters and DFAS Kansas City did not report any weaknesses in their
    FFMIA or FMFIA ASA Section 4 reporting. The FY 2005 FMFIA ASA
    Section 4 reporting guidance did not address if the Components were responsible
    for reporting financial management system weaknesses. The FY 2006 guidance
    states that the Department will not require Components to identify or report
    Section 4 nonconformance weaknesses. DFAS Headquarters and DFAS Kansas
    City did not submit Component-level information for FFMIA reporting. It is
    unclear whether the financial management system weaknesses identified at the
    DoD level were applicable to the DFAS financial management systems. Whether
    DFAS can produce timely and reliable financial statements including USMC
    financial statement information is not readily evident.


Management Comments on the Finding and Audit Response
    Management Comments on Financial Management System Controls
    Reporting. The Director, DFAS Kansas City included in his comments a
    response from the Chief Information Officer, DFAS. In his response, the Chief
    Information Officer, DFAS stated that DFAS Kansas City was in compliance with
    the Office of the Under Secretary of Defense (Comptroller) guidelines. DFAS did
    not conduct FMFIA process and system compliance testing in FYs 2005 and
    2006. He added that if DFAS had identified material weaknesses during its
    financial management reviews, DFAS would have reported the weaknesses in the
    agency’s FMFIA Section 4 report. The Chief Information Officer, DFAS also
    explained the system testing processes applicable to FY 2007.

    Audit Response. We agree the FY 2005 FMFIA ASA Section 4 reporting
    guidance did not address whether Components were responsible for reporting
    financial management system weaknesses. Also, we agree the FY 2006 guidance
    states that the Department will not require Components to identify or report
    Section 4 nonconformance weaknesses. However, without this information from
    DFAS, it is unclear whether the financial management system weaknesses
    identified at the DoD level were applicable to the DFAS financial management
    systems.



                                        12
Recommendations, Management Comments, and Audit
  Response
    Redirected. As a result of management comments, we redirected
    Recommendation B.2. to the Director, DFAS. DFAS should develop remediation
    plans to comply with FFMIA reporting.

    B.1. We recommend the Director, Defense Finance and Accounting Service
    Kansas City report the financial management systems material weaknesses
    in the Federal Financial Management Improvement Act report and Federal
    Managers’ Financial Integrity Act Annual Statement of Assurance Section 4,
    if applicable, after implementing the recommendations from finding A.

    Management Comments. The Director, DFAS Kansas City included in his
    comments a response from the Chief Information Officer, DFAS. In his response,
    the Chief Information Officer, DFAS nonconcurred. However, he agreed there
    was no clear guidance for the FMFIA ASA, Section 4 submission in FYs 2005
    and 2006. Therefore, DFAS did not submit any information for the FMFIA ASA
    Section 4. He stated that DFAS has established a working group to develop an
    FFMIA implementation plan for FY 2007 and, as demonstrated in their FY 2007
    FMFIA ASA Section 4 report, DFAS has developed a more “systematic,
    repeatable, and standard” method for collecting and evaluating system
    compliance across the enterprise that mitigates future issues.

    Audit Response. Although the Chief Information Officer, DFAS nonconcurred,
    the comments indicate that corrective actions have been taken in FY 2007 that
    would have corrected the deficiencies identified in our report. These comments
    are responsive and no further comments are requested.

    B.2. We recommend the Director, Defense Finance and Accounting Service
    develop a remediation plan for identified financial management system
    material weaknesses. If the DoD Financial Improvement and Audit
    Readiness Plan is used as the remediation plan, ensure that Defense
    Financial and Accounting Service Kansas City specific remediation actions
    are included in the Plan.

    Management Comments. The Director, DFAS Kansas City included in his
    comments a response from the Chief Information Officer, DFAS. In his response,
    the Chief Information Officer, DFAS nonconcurred. He stated that DFAS does
    not have a requirement to develop a remediation plan as there are no identified
    financial management system material weaknesses.

    Audit Response. The Chief Information Officer, DFAS comments are not
    responsive. Based on inadequate testing for FYs 2005 and 2006 (finding A),
    financial management system material weaknesses would not have been
    identified. We do not agree that DFAS does not have financial management




                                       13
system material weaknesses. Joint Financial Management Improvement Program
testing identified five high priority requirement failures. Identified material
weaknesses would require DFAS to prepare a remediation plan to address the
failures. We request that Director, DFAS review and comment on our
recommendation to develop remediation plans to comply with FFMIA reporting.




                                   14
                    C. FISMA Reporting
                    DFAS Headquarters submitted an incomplete FISMA Report.
                    Specifically, DFAS Headquarters did not:

                             •   use a complete list of systems,

                             •   request network and training information from all DFAS sites,
                                 and

                             •   maintain supporting documentation for the information
                                 submitted in the FISMA report.

                    FISMA reporting was incomplete because DFAS Headquarters did not
                    have standard operating procedures in place for compiling and
                    documenting FISMA reporting information. Because of the incomplete
                    information and lack of documentation, DFAS Headquarters could not
                    ensure they had all the necessary information to support FISMA
                    requirements, and DFAS Kansas City could not ensure that systems,
                    including USMC financial statement systems, were secure.

Information System Inventory
           DFAS Headquarters Chief Information Office used the IT Registry6 to compile
           the FY 2005 FISMA systems information. The DFAS Headquarters Chief
           Information Office should have requested that each DFAS site submit systems
           inventory information for the systems they use. DoD Office of Inspector General
           and the Government Accountability Office (GAO) have reported that the IT
           Registry, which is intended to be an inventory of mission-critical and
           mission-essential systems, is unreliable and incomplete. Additionally, the Under
           Secretary of Defense (Comptroller)/Chief Financial Officer has not relied on the
           IT Registry to develop its list of systems to be reported to Congress but has issued
           separate data calls; therefore, DFAS Headquarters should have used other sources
           for FISMA reporting. The FY 2005 FISMA report is not reliable because
           incomplete and unreliable system inventory information was used to compile the
           report. DFAS did not have policies and procedures to explain which systems
           were supposed to be included in the FISMA report.


Information Requested from DFAS Sites
           The DFAS Headquarters Chief Information Office requested only training metrics
           from DFAS Kansas City. In contrast, the DFAS Headquarters Chief Information
           Office requested additional FISMA information pertaining to DFAS network
6
    The IT Registry is a database of mission-critical and mission-essential information technology (IT)
    systems. This database is maintained by the DoD Chief Information Office.



                                                      15
    services from other DFAS sites. The DFAS Headquarters Chief Information
    Office did not request standard information at the Component level. Without this
    information, DFAS cannot ensure reliable system security reporting. Standard
    operating procedures would explain the compilation process at the Component
    level and ensure that standard information is gathered at the Component level.

Maintaining FISMA Documentation
    The DFAS Headquarters Chief Information Office did not maintain
    documentation to support the DFAS FISMA report. In addition, DFAS Kansas
    City did not maintain documentation to support the information it submitted to the
    DFAS Headquarters Chief Information Office for the DFAS FISMA report.
    DFAS did not have policies and procedures that required documentation to be
    maintained for audit purposes. In the absence of these policies and procedures,
    we were unable to determine how the DFAS FISMA reporting was completed and
    whether the reported system information was supported.


Conclusion
    Although DFAS Headquarters FY 2005 FISMA report did not identify any
    material weaknesses with their IT systems, the report was based on incomplete
    and unreliable data. DFAS Headquarters could not ensure that they had all the
    necessary information to support FISMA requirements ensuring security over all
    systems. This information should include those systems used to process USMC
    financial statement data. In addition, DFAS Headquarters and DFAS Kansas City
    did not maintain supporting documentation to provide an audit trail. Without this
    supporting documentation, DFAS Headquarters was unable to ensure that its
    FY 2005 FISMA report is accurate.


Management Comments on the Finding and Audit Response
    Management Comments on FISMA Reporting. The Director, DFAS Kansas
    City included in his comments a response from the Chief Information Officer,
    DFAS. The Chief Information Officer, DFAS disagreed with the finding. In his
    response, he stated that DFAS processes in place did provide an efficient means
    for providing training and collecting information to ensure accurate reporting
    compliance with the FYs 2005 and 2006 FISMA requirements.

    Audit Response. DoD Office of Inspector General and the Government
    Accountability Office have reported that the IT Registry, which is intended to be
    an inventory of mission-critical and mission essential systems, is unreliable and
    incomplete. DFAS used the IT Registry to compile the FY 2005 FISMA systems
    information. Without a complete list of major systems, DFAS could not ensure it
    had all the necessary information to support FISMA requirements. In addition,


                                        16
    the Chief Information Officer, DFAS did not request standard information at the
    Component level. Without this information, DFAS cannot ensure reliable system
    security reporting. DFAS Kansas City did not maintain documentation to support
    the information it submitted to the Chief Information Officer, DFAS for the
    DFAS FISMA report. Without this supporting documentation, DFAS was unable
    to ensure that its FY 2005 FISMA report was accurate.


Recommendations, Management Comments, and Audit
  Response
    Clarified. As a result of management comments, we clarified
    Recommendation C specifically to the Director, DFAS to ensure standard
    operating procedures are used to support the FISMA reporting process.

    C. We recommend Defense Finance and Accounting Service Headquarters
    document and implement standard operating procedures for the Federal
    Information Security Management Act reporting process. These standard
    operating procedures should include a consistent method for collecting
    information from Defense Financial and Accounting Service sites as well as
    provide a specific amount of time, a minimum of 2 years, for maintaining
    supporting documentation.

    Management Comments. The Director, DFAS Kansas City included in his
    comments a response from the Chief Information Officer, DFAS. In his response,
    the Chief Information Officer, DFAS nonconcurred. He stated that DFAS uses
    the prescribed DoD policies and procedures and only augments them as necessary
    to ensure accurate and reliable reporting. To that end, DFAS has standard
    operating procedures to ensure compliance with, and accurate reporting in
    accordance with, FISMA policies and procedures that are in compliance with
    statutory and regulatory guidelines. The Chief Information Officer, DFAS stated
    that DFAS revised the Chief Information Office policies published in FY 2007
    which mandate compliance with FISMA, FFMIA, and FMFIA and directs that all
    DFAS information systems comply with established standards.

    Audit Response. The Chief Information Officer, DFAS nonconcurred and the
    comments were not responsive. Although DFAS stated that it revised Chief
    Information Office policies in FY 2007, the Chief Information Officer did not
    adequately comment on identifying a complete list of systems from all available
    sources. In addition, the Chief Information Officer did not comment on
    maintaining the support for the information requested and received. We request
    that the Director, DFAS review and comment on our recommendation to
    document and implement standard operating procedures for the FISMA reporting
    process.




                                       17
Appendix A. Scope and Methodology
    We conducted this audit from November 2005 through July 2007 in accordance
    with generally accepted government auditing standards. Those standards require
    that we plan and perform the audit to obtain sufficient, appropriate evidence to
    provide a reasonable basis for our findings and conclusions based on our audit
    objectives. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objectives.

    We reviewed the Internal Control Program related to FMFIA, FFMIA, and
    FISMA reporting by DFAS Kansas City. We limited our scope to the DFAS
    Kansas City Accounting Business Line. Specifically, we reviewed the DFAS
    Kansas City assessable units, control objectives and techniques, and testing
    documentation. We interviewed DFAS Kansas City personnel to determine how
    the assessable units were identified, what control objectives and techniques were
    in place during FY 2005, and how these internal controls were tested. We also
    interviewed DFAS Headquarters personnel regarding FFMIA and FISMA
    information that supported the Annual Statement of Assurance. We reviewed the
    Manager’s Annual Assessable Unit Certification Statements and the Management
    Control Evaluations that were completed for each assessable unit in support of the
    annual reporting requirements. We could not assess the adequacy of the
    Manager’s Annual Assessable Unit Certifications as documentation did not exist
    to support the testing of the internal controls. We subsequently reviewed the
    FY 2006 DFAS Kansas City ASA and supporting information.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Financial Management high-risk area. GAO considered
    DoD Financial Management a high risk because DoD’s financial management
    deficiencies represent the single largest obstacle to achieving an unqualified
    opinion on the U.S. Government’s consolidated financial statements.


Prior Coverage
    No prior coverage has been conducted on FMFIA, FFMIA, and FISMA reporting
    on behalf of the USMC by DFAS Kansas City during the last 5 years. However,
    DFAS Internal Review performed a review of the DFAS’ FMFIA Program from
    August 2005 through September 2005. Their review objective was to determine
    what actions DFAS should take to transform the FMFIA Program to comply with
    OMB Circular A-123 and its Appendix A. The review found DFAS infrastructure
    is not adequate to address the newly required internal control assessment
    methodology as required by OMB Circular A-123, revised December 21, 2004,
    because (1) management has not clearly identified internal and external risks;


                                        18
(2) DFAS needs to issue supplemental guidance on the revised OMB
Circular A-123; and (3) no link exists between the databases related to internal
control tracking, which includes high risk, FMFIA, and audit.




                                    19
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Director, Office of Financial Operations, Assistant Secretary of the Navy, Financial
   Management and Comptroller
Assistant Deputy Commandant for Programs and Resources (Fiscal) United States
   Marine Corps


Other Defense Organizations
Director, Defense Finance and Accounting Service
Chief Information Officer, Defense Finance and Accounting Service
Director, Defense Finance and Accounting Service Kansas City

Non-Defense Federal Organization
Office of Management and Budget




                                           20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriation
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      21
Defense Financing and Accounting Service
Comments




                      23
24
25
Final Report
 Reference




Revised and
Redirected,
Page 7




               26
27
28
     Final Report
      Reference




     Redirected
     Page 13




29
30
     Final Report
      Reference




     Clarified,
     Page 17




31
     Final Report
      Reference




32
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Edward A. Blair
Cecelia M. Ball
Michael Adams
Beverly Smythe
Denny Moore
Cassondra Lane
Erin Hart
